U.S. Department of Agriculture
 Office of Inspector General
      Southeast Region
         Audit Report




      FOOD AND NUTRITION SERVICE
    NATIONAL SCHOOL LUNCH PROGRAM
CONTROLS OVER FOOD SERVICE MANAGEMENT
      COMPANIES, SOUTH CAROLINA
    SCHOOL YEARS 1997 THROUGH 1999




                  REPORT NO.
                  27601-10-At
                  FEBRUARY 2001
                     UNITED STATES DEPARTMENT OF AGRICULTURE
                               OFFICE OF INSPECTOR GENERAL
                                    Southeast Region - Audit
                              401 West Peachtree Street, Suite 2328
                                     Atlanta, Georgia 30308
                              TEL: 404-730-3210 FAX: 404-730-3221



DATE:        February 16, 2001

REPLY TO
ATTN OF:     27601-10-At

SUBJECT:     National School Lunch Program – Controls Over Food Service
             Management Companies, South Carolina

TO:          Virgil L. Conrad,
             Regional Administrator
             U.S. Department of Agriculture
             Food and Nutrition Services
             61 Forsyth Street, SW, Suite 8T36
             Atlanta, GA 30303

SUMMARY:

This report presents the results of our audit of Food Service Management Companies
(FSMC) that manage school food service programs in South Carolina. The audit was
part of a nationwide audit of School Food Authorities (SFA) who contracts with FSMC to
operate and manage their National School Lunch Program (NSLP) and School
Breakfast Program (SBP). Prior Office of Inspector General audits and investigations
disclosed that FSMC does not always pass on to SFA the full value of the U.S.
Department of Agriculture’s (USDA) donated commodities and/or discounts and rebates
on commercial purchases. For the two FSMC’s we reviewed in South Carolina, we
found they properly accounted for USDA-donated commodities and passed on to SFA
the full value for donated-commodities, rebates, and discounts. We did find that the
SFA could improve their monitoring of FSMC to ensure compliance with contract terms
and other regulatory requirements.

BACKGROUND:

Under agreements with State agencies, SFA’s are responsible for operating school
nutrition programs in schools under their jurisdiction. SFA may contract with a FSMC to
manage food service operations. SFA must provide adequate safeguards over
contractor activities to ensure that food service operations are in accordance with
program objectives. All USDA-donated commodities and other benefits such as
discounts and rebates the FSMC receives from commercial purchases must accrue only
to the benefit of the SFA’s school food service account. SFA’s are also required to have
a sufficient number of knowledgeable staff to coordinate, monitor, review, and
control food service operations and to perform responsibilities retained by the SFA.
Virgil Conrad                                                                 Page 2

A contract between SFA and FSMC can be either fixed rate (price per meal) or cost
reimbursable. The SFA is required to insure that all USDA commodities the FSMC
receives are used for the school food service only and the full value of commodities
benefits the SFA’s food service operation. Fixed price per meal contracts are to reflect
a reduction in the billed amount that is equal to the value of USDA-donated
commodities used. For cost reimbursable contracts, FSMC is required to pass on to
SFA all discounts and rebates on purchase of foods and supplies.

In South Carolina there are 88 SFA’s. For the 2 school years 1997 through 1999, the
88 SFA’s were reimbursed approximately $336 million for meals served. Ten of the
88 SFA’s contracted with 2 FSMC’s to manage their food service operations. The   10
SFA’s were reimbursed approximately $29 million for school years 1997 through 1999.
One FSMC contracted with eight SFA’s who were reimbursed approximately          $22
million for the period and the other FSMC contracted with the remaining 2 SFA’s who
were reimbursed approximately $7million for the period.

South Carolina received USDA-donated commodities valued at approximately
$37 million for the 2 school years. The 10 SFA’s that contracted with FSMC received
approximately $3.7 million in USDA-donated commodities during the period.

OBJECTIVES:

The objective of the audit was to determine whether controls at the State agency and
SFA were sufficient to ensure that FSMC credited SFA for the full value of USDA-
donated commodities and passed all purchase discounts, rebates, and other credits
applicable to the NSLP/SBP to SFA.

SCOPE:

Our review was performed at the State agency in Columbia, South Carolina; three
SFA’s (two located in Spartanburg, South Carolina, and one in Greenwood, South
Carolina); and at the two FSMC’s both located in Spartanburg, South Carolina. Our
audit covered the contracts between the 3 SFA’s and the 2 FSMC’s for school years
1997 through 1999.

METHODOLOGY:

To accomplish our audit objectives, we reviewed applicable laws, regulations, and
procedures, and evaluated the State agency’s and SFA’s controls over FSMC. We
evaluated (1) the Request for Proposal (RFP) and contracts under which FSMC agrees
to manage the SFA’s food service operation, (2) FSMC’s procedures to account for
USDA-donated commodities and issue credits for the full value of USDA donated-
commodities, (3) FSMC’s procedures to ensure that discounts, rebates, or other credits
were properly accounted for and credited to SFA, and (4) SFA’s and FSMC’s
procedures to ensure the accuracy of meal counts. We also conducted interviews and
performed record reviews at the State agency, SFA and FSMC.
Virgil Conrad                                                                Page 3

DETAILS:

The three SFA’s we visited received full value from FSMC for donated commodities,
discounts, and rebates. During the audit period, the 3 SFA’s received credit for
approximately $1.4 million in USDA donated commodities, and rebates and discounts of
about $5,100 from the FSMC’s. Our examination of the FSMC’s fiscal and procurement
records did not disclose any other rebates, discounts, or credits.

We did find that the three SFA’s did not monitor or document their monitoring of FSMC
to ensure that the companies complied with the contract terms and other applicable
Federal, State and local rules and regulations. As required in the USDA Food and
Nutrition (FNS) Service Handbook “Contracting With Food Service Management
Companies” (Chapter 7), SFA monitoring responsibilities include evaluating docu-
mentation supporting claims for reimbursement, reviewing meal count records, cost
records, meal patterns, and menus. Although our review did not disclose any
improprieties, SFA should be more active in their monitoring efforts. SFA officials
agreed that they should do a better job of monitoring FSMC. They said that they would
develop checklists and logs to assist them in monitoring FSMC and increase their
monitoring efforts over FSMC.

RECOMMENDATION:

Require SFA to monitor their FSMC’s to ensure compliance with contract terms and
applicable rules and regulations.

FNS RESPONSE:

In its February 15, 2001, response (attachment), FNS replied, “We agree with the
findings and recommendations for corrective action as stated. We will monitor the State
Department of Education in South Carolina to ensure that they advise School Food
Authorities of their responsibilities to manage their food service management company
contracts.”

OIG POSITION:

We accept the management decision for this recommendation.

A copy of your February 15, 2001, response and this memorandum are being provided
to the Office of the Chief Financial Officer (OCFO). Follow your internal agency
procedures in forwarding final action correspondence to the OCFO.
Virgil Conrad                                                               Page 4

We appreciate the cooperation extended to us by you and your staff during our review.



/S/
RAYMOND G. POLAND
Regional Inspector General

Attachment

cc: OCFO
